             OFFICE OF
      THE INSPECTOR GENERAL

  SOCIAL SECURITY ADMINISTRATION



PERSONNEL COSTS AND HIRING PRACTICES OF
        THE GEORGIA DISABILITY
        ADJUDICATION SERVICES


     December 2012    A-04-12-22135




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      December 20, 2012                                                     Refer To:

To:        Michael W. Grochowski
           Regional Commissioner
            Atlanta

From:      Inspector General

Subject:   Personnel Costs and Hiring Practices of the Georgia Disability Adjudication Services
           (A-04-12-22135)


           OBJECTIVE
           Our objectives were to (1) evaluate the Georgia Disability Adjudication Services’
           (GA-DAS) internal controls over the accounting and reporting of personnel costs;
           (2) determine whether the personnel costs claimed by GA-DAS were accurate and
           allowable, and funds were properly drawn for these costs; and (3) determine whether
           GA-DAS complied with Social Security Administration (SSA) policies, procedures, and
           guidelines when hiring personnel.

           BACKGROUND
           Disability determination services (DDS) in each State or other responsible jurisdiction
           perform disability determinations under the SSA Disability Insurance and Supplemental
           Security Income programs according to Federal law and regulations. 1 Each DDS is
           responsible for determining claimants’ disabilities and ensuring adequate evidence is
           available to support its determinations.

           To make proper disability determinations, SSA authorizes each DDS to purchase
           medical examinations, X rays, and laboratory tests on a consultative basis to
           supplement evidence obtained from the claimants’ physicians or other treating sources. 2




           1
            Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601, et. seq., and
           416.1001, et. seq.
           2
               SSA, POMS, DI 39545.120.A. (April 20, 2007).
Page 2 – Michael Grochowski


SSA reimburses the DDS for 100 percent of allowable expenditures up to its approved
funding authorization for costs reported on a State Agency Report of Obligations for
SSA Disability Programs (Form SSA-4513). 3

GA-DAS’ main office is in Stone Mountain, Georgia, and its four branches are in Athens,
Dalton, Savannah, and Thomasville, Georgia. GA-DAS is a component of the Georgia
Vocational Rehabilitation Agency, within the Georgia Department of Human Services
(GA-DHS). On July 1, 2012, after our audit period, the State of Georgia organizationally
transferred GA-DAS from the Georgia Department of Labor (GA-DoL) to the newly
created Georgia Vocational Rehabilitation Agency. 4 Before this transfer, GA-DoL
accounted for GA-DAS’ disbursements, completed the Form SSA-4513, and prepared
requests to transfer cash from the Department of the Treasury to the State Treasurer.
After the transfer, GA-DoL continued providing support services to GA-DAS and will do
so until all responsibilities are fully transferred to GA-DHS.

For the 6-month period October 1, 2011 through March 31, 2012, GA-DAS claimed total
costs of about $31 million, including $18 million in personnel costs. 5 See Appendix C
for the costs GA-DAS reported on Form SSA-4513 for the four major cost categories.
As of October 1, 2011, GA-DAS had 463 employees: 443 full-time and 20 part-time.
During our audit period, SSA authorized GA-DAS to hire 15 full-time staff and approved
3 hardship transfers. As of July 31, 2012, GA-DAS had hired 12 of the 15 authorized
full-time staff and the 3 hardship transfers. For additional background and our audit
scope and methodology, see Appendix B.

RESULTS OF REVIEW
During our audit period, most of the personnel costs GA-DAS claimed were appropriate.
However, we identified instances of overpayments and actions that indicated GA-DAS
needed to better adhere to SSA policies and procedures. Specifically, GA-DAS
incorrectly used $7,097 of SSA funds to pay the salary of a GA-DoL employee on loan
to GA-DAS. SSA granted excessive systems access to the same individual based on
inaccurate information provided by GA-DAS. That is, GA-DAS did not indicate on the
required request form that the individual was not a permanent employee. Finally,
GA-DAS paid $115,701 in temporary salary increases to certain employees without
SSA’s approval. Given our findings, we believe SSA should work with the DDS to
ensure its leadership and parent agency are properly trained and counseled on SSA

3
 SSA, POMS, DI 39501.020 B. (February 28, 2002), DI 39506.001.B. (March 12, 2002), and
DI 39506.202.A. (March 12, 2002).
4
  On April 19, 2012, Georgia’s Governor signed Georgia House Bill 1146 that created the Georgia
Vocational Rehabilitation Agency, effective July 1, 2012. The new agency was created “to perform the
functions and assume the duties, powers, and authority exercised . . . . by the Division of Rehabilitation
Services within the Department of Labor, including the disability adjudication and the Roosevelt Warm
Springs Institute for Rehabilitation . . . .” See Code 1981, § 49-9-4, as redesignated by Ga. L. 2012,
p.303, § 1/HB 1146.
5
    Included in these personnel costs is $4.7 million GA-DAS paid for contracted Medical Consultants.
Page 3 – Michael Grochowski


personnel policies. Further, we believe SSA should closely monitor GA-DAS personnel
costs until it is satisfied that GA-DAS is complying with SSA policies and procedures.

INCORRECT PAYROLL COSTS

Improper Use of SSA Funds

GA-DAS incorrectly used $7,097 of SSA funds to pay the salary of a GA-DoL executive
who was on loan to GA-DAS. This individual was not a GA-DAS employee. According
to the Director, GA-DAS, GA-DoL loaned GA-DAS the executive to assist with
management initiatives and transitioning the DDS’ functions to the new Georgia
Vocational Rehabilitation Agency. The loaned executive began working with GA-DAS in
October 2011 and, at the time of our audit, was still serving in this position. GA-DAS
used SSA funds to pay the loaned executive’s salary for March and April 2012.

The Director, GA-DAS, informed us that the funding error occurred because staff
processing payroll believed the loaned executive had been designated as a GA-DAS
employee. As such, staff mistakenly changed the project and function codes in the
State’s payroll system to indicate the loaned executive should be paid as a GA-DAS
employee, instead of a GA-DoL employee. The Director informed us that when she
became aware of the error, she instructed staff to correct the codes and ensure SSA
would not be charged for the loaned executive’s salary. The Director also stated that
she instructed management and staff to make changes in the payroll system only when
properly directed.

Before correcting the fund codes, GA-DAS claimed $2,742 for the loaned executive’s
salary on its Form SSA-4513 for the 6-month period ended March 31, 2012. GA-DoL
posted the remaining $4,355 in salary costs to GA-DAS’ cost center in April 2012.
However, during our audit, GA-DoL corrected the entire $7,097 funding and cost error in
its accounting system. GA-DAS credited $2,239 in personnel costs on its Form
SSA-4513 for the third quarter of Fiscal Year (FY) 2012 and will credit the remaining
balance in the fourth quarter. SSA should verify that GA-DAS credits $4,858 to
personnel costs in the fourth quarter of FY 2012.

Unauthorized Salary Increases

In February 2012, without SSA’s approval, GA-DAS began paying 332 GA-DAS
employees a 7-percent performance-based salary increase. GA-DAS paid the salary
increases, totaling $115,701, over 3 pay periods—2 in February 2012 and 1 in
March 2012. GA-DAS claimed the cost of the salary on its Form SSA-4513 for the
6-month period ended March 31, 2012.

On September 30, 2011, SSA’s Atlanta Regional Commissioner attended a staff
meeting at GA-DAS. During the meeting, the Director, GA-DAS, told the audience she
was considering granting temporary salary supplements as an incentive for continued
superior performance and as an alternative to permanent pay increases. Upon learning
Page 4 – Michael Grochowski


of the planned salary increases, the Atlanta Regional Commissioner began reviewing
the matter. On October 13, 2011, the Atlanta Regional Commissioner notified the
Director, GA-DAS, that SSA likely would not fund payroll bonuses. However, if GA-DAS
decided to pursue such an initiative, it needed to submit a formal, written request to the
SSA’s Atlanta Regional Office (ARO). He also explained to the Director that the request
would require both the ARO’s and SSA Headquarters’ approval.

During further discussion about possible salary supplements in a February 7, 2012
meeting, ARO officials reiterated to the Director that she needed to submit a formal
request and obtain SSA approval before granting these pay increases. Nevertheless,
on February 14, 2012, the Director notified ARO that the DDS would pay the
supplements in February and March 2012 without such approval.

In response, the Atlanta Regional Commissioner informed GA-DAS on March 1, 2012,
that the salary increases were unauthorized and should be refunded to SSA. GA-DAS
ended the salary increases in the following pay period and recovered the increases from
the affected employee’ salaries over 3 pay periods in April and May 2012.

The Director, GA-DAS, explained that, in her experience with Georgia State
government, it was appropriate to use salary supplements when permanent raises or
bonuses were not permitted. The Director also informed us that she discussed the
salary supplements with GA-DoL officials and received their approval to grant them.

ACCESS TO SSA SYSTEMS

In October 2011, GA-DAS formally requested that SSA authorize the GA-DoL loaned
executive (previously discussed) access to SSA systems. Specifically, GA-DAS
requested systems access by submitting an Application for Access to SSA Systems
(Form SSA-120) to the ARO’s Center for Security and Integrity. The request asked for
the same level of access that SSA typically provides to DDS claims examiners. This
level provides access to claimants’ records containing sensitive personally identifiable
information, such as medical information, income and work histories, addresses, and
Social Security numbers. The Director, GA-DAS, explained that the DDS requested this
level of access because the loaned executive might need to review such information
while functioning as a GA-DAS senior manager. Data on the Form SSA-120 indicated
the DDS was requesting access for a “GA-DAS/GA-DoL employee” but did not explain
that the employee was on loan from GA-DoL and not an actual GA-DAS employee.
Based on the information provided on the Form SSA-120, ARO granted the requested
systems access.

In February 2012, GA-DAS submitted another Form SSA-120 to the ARO requesting
SSA grant the loaned executive access to SSA’s system that provides DDS workload
processing information. Like the above request, the Form SSA-120 indicated the
access was for a “GA-DAS/GA-DoL employee” and was silent on the fact that the
individual was on loan from GA-DoL. Upon receipt and review of the Form SSA-120,
ARO granted the requested access.
Page 5 – Michael Grochowski


In July 2012, we discussed with ARO officials whether the loaned executive, who is
designated to work on transition efforts and other management initiatives, should have
access to claimants’ personally identifiable information. The ARO officials determined
that had its Center for Security and Integrity known the request was for a loaned
executive (not a GA-DAS employee) it would not have authorized the requested
systems access without further information. Following our conversation, ARO notified
GA-DAS that the loaned executive’s system access was limited to a clerical profile. On
July 25, 2012, per the ARO’s request, GA-DAS submitted a new Form SSA-120 that
requested access to only the local network. The Director, GA-DAS, informed us that the
new limited level of access was requested in compliance with GA-DAS policies and
procedures, which limited an individual’s access to what is needed to perform work-
related duties.

CONCLUSION AND RECOMMENDATIONS
GA-DAS incorrectly used $7,097 of SSA funds to pay the salary of an executive on loan
to the DDS who was not a GA-DAS employee. Also, without SSA’s approval, GA-DAS
paid almost $116,000 in performance-based salary increases. Finally, GA-DAS
requested and obtained from SSA a systems access profile for the loaned executive
without a need for the information exposed by this level of access. GA-DAS took
corrective actions on the findings identified in this report. As such, we recommend the
ARO:

1. Work with GA-DAS to ensure its leadership and parent agency are properly trained
   and counseled on SSA personnel policies.

2. Closely monitor the GA-DAS’ personnel costs until the ARO is satisfied GA-DAS is
   complying with SSA policies and procedures.

3. Verify that GA-DAS credits $4,858 to the personnel costs claimed on the SSA-4513
   for fourth quarter of FY 2012.

AGENCY COMMENTS
SSA and GA-DAS’ responses indicated they agreed with our recommendations. See
Appendices D and E, respectively, for the full text of the comments.




                                        Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Background, Scope, and Methodology
APPENDIX C – Schedule of Total Costs Reported on the Forms SSA-4513—State
             Agency Report of Obligations for SSA Disability Programs
APPENDIX D – Agency Comments
APPENDIX E – Georgia Disability Adjudication Services’ Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                                Appendix A

Acronyms
Act           Social Security Act
ARO           Atlanta Regional Office
C.F.R.        Code of Federal Regulations
DDS           Disability Determination Services
DI            Disability Insurance
FY            Fiscal Year
GA-DAS        Georgia Disability Adjudication Services
GA-DHS        Georgia Department of Human Services
GA-DoL        Georgia Department of Labor
OIG           Office of the Inspector General
OMB           Office of Management and Budget
POMS          Program Operations Manual System
Pub. L. No.   Public Law Number
SSA           Social Security Administration
SSI           Supplemental Security Income
U.S.C.        United States Code


Forms
SSA-4513      State Agency Report of Obligations for SSA Disability Programs
SSA-120       Application for Access to SSA Systems
                                                                                    Appendix B

Background, Scope, and Methodology
The Disability Insurance (DI) program, established under Title II of the Social Security
Act (Act), provides benefits to wage earners and their families in the event the wage
earner becomes disabled. 1 The Supplemental Security Income (SSI) program,
established under Title XVI of the Act, provides benefits to financially needy individuals
who are aged, blind, or disabled. 2

The Social Security Administration (SSA) is responsible for implementing policies for the
development of disability claims under the DI and SSI programs. Disability
determination services (DDS) in each State, Puerto Rico, Guam, the U.S. Virgin Islands,
and the District of Columbia perform disability determinations under both the DI and SSI
programs. Such determinations are required to be performed in accordance with
Federal law and underlying regulation. 3 In carrying out its obligation, each DDS is
responsible for determining claimants’ disabilities and ensuring adequate evidence is
available to support its determinations. To assist in making proper disability
determinations, SSA authorizes each DDS to purchase medical examinations, X rays,
and laboratory tests on a consultative basis to supplement evidence obtained from the
claimants’ physicians or other treating sources.

SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
approved funding authorization. The DDS withdraws Federal funds through the
Department of the Treasury’s Automated Standard Application for Payments System to
pay for program expenditures. Funds drawn down must comply with Federal
regulations 4 and intergovernmental agreements entered into by the Department of the
Treasury and States under the Cash Management Improvement Act of 1990. 5 An
advance or reimbursement for costs under the program must comply with Office of
Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments. 6 At the end of each quarter of the Fiscal Year (FY), each
DDS submits a Form SSA-4513, State Agency Report of Obligations for SSA Disability
Programs (Form SSA-4513), to account for program disbursements and unliquidated
obligations.
1
    Social Security Act §§ 216(i) and 223, 42 U.S.C. §§ 416(i) and 423.
2
    Social Security Act § 1601, et seq., 42 U.S.C. §1381, et seq. See also 20 C.F.R. § 416.110.
3
 Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601 et. seq. and
416.1001 et. seq.
4
    31 C.F.R. Part 205.
5
 Cash Management Improvement Act of 1990, Pub. L. No. 101-453, § 5(b), 104 Stat. 1058, 1059
(Codified at 31 U.S.C. § 6503) (1990).
6
    2 C.F.R. Part 225 (August 31, 2005).


                                                   B-1
SCOPE

To accomplish our objectives, we reviewed the personnel costs Georgia Disability
Adjudication Services (GA-DAS) reported on its Form SSA-4513 for the 6-month period
October 1, 2011 through March 31, 2012. For this period, we obtained evidence to
evaluate recorded financial transactions and determine whether they were allowable
under OMB Circular A-87 and appropriate, as defined by SSA’s Program Operations
Manual System.

We also:

•   Interviewed officials at the GA-DAS, General Accounting Office, and Georgia
    Department of Labor.
•   Interviewed the Atlanta Region official responsible for the GA-DAS oversight.
•   Verified the reconciliation of State accounting records for the personnel costs
    GA-DAS reported on the Forms SSA-4513.
•   Examined the personnel expenditures GA-DAS incurred and claimed.
•   Examined personnel files for selected GA-DAS employees.
The electronic data used in our audit were sufficiently reliable to achieve our audit
objectives. We assessed the reliability of the electronic data by reconciling them with
the costs claimed on the Forms SSA-4513. We also conducted detailed audit testing on
selected data elements in the electronic data files.

We performed our audit at GA-DAS in Stone Mountain, Georgia; the Georgia
Department of Human Services in Atlanta, Georgia; and the Office of Audit in Atlanta,
Georgia, from May to August 2012. We conducted our audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

METHODOLOGY

Our sampling methodology included only the personnel costs as reported on
Forms SSA-4513. We obtained computerized cost data from GA-DAS for the 6-month
period October 1, 2011 through March 31, 2012. We used the computerized data to
select a statistical sample for our control tests.

For our control tests, we sampled 50 employees and 50 medical consultants from
1 randomly selected month from the 6-month period October 1, 2011 through
March 31, 2012. For employee salaries, we tested regular and overtime payroll and
hours for each individual selected. We verified that approved time records were


                                          B-2
maintained and supported the hours worked. For the 50 medical consultants, we tested
contract reimbursement rates and the number of claims paid. Our control tests
determined whether GA-DAS charged SSA the correct medical consultant costs.




                                       B-3
                                                           Appendix C

Schedule of Total Costs Reported on the
Forms SSA-4513—State Agency Report of
Obligations for SSA Disability Programs

                 Georgia Disability Adjudication Services
              6-Month Period—October 1 Through March 31, 2012
                                            UNLIQUIDATED           TOTAL
      REPORTING ITEMS      DISBURSEMENTS    OBLIGATIONS         OBLIGATIONS
Personnel                     $18,064,567            $0          $18,064,567
Medical                        $7,902,937    $2,542,050          $10,444,987
Indirect                       $1,870,333            $0           $1,870,333
All Other                      $3,052,338      $629,790           $3,682,128
                  TOTALS     $30,890,175     $3,171,840          $34,062,015
                  Appendix D

Agency Comments
                                        SOCIAL SECURITY
MEMORANDUM

Date:    November 9, 2012                          Refer To: S2D4
                                                   (D BH 21419)
To:      Inspector General

From:    Regional Commissioner
         Atlanta

Subject: Personnel Costs and Hiring Practices of the Georgia Disability Adjudication Services -
         A-04-12-22135 (Your Memorandum, 10/11/12)--REPLY

         Thank you for the opportunity to comment on the recommendations presented in the
         draft audit report of the Georgia Disability Adjudication Service’s (GA-DAS) personnel
         costs and hiring practices for the period October 1, 2011, through March 31, 2012. We
         found this first phase of the Office of Inspector General’s (OIG) audit of the GA-DAS to
         be detailed and comprehensive, focusing on all areas affecting the personnel portion of
         their budget. Specifically, the auditors reviewed the GA-DAS’s internal controls,
         accounting procedures, fiscal reporting, time and attendance practices, personnel
         charges, and compliance with Social Security (SSA) guidelines. Overall, the Atlanta
         Regional Office (ARO) concurs with the draft report’s findings and recommendations
         regarding the GA-DAS’s personnel costs and hiring practices during the first six
         months of Fiscal Year 2012.

         A number of deficiencies were found during the audit in terms of certain payroll
         expenses claimed for reimbursement, compliance with SSA directives, and a
         questionable hiring issue involving a parent agency loaned executive. These issues
         have raised a number of serious concerns about GA-DAS’s internal controls,
         communications, and employment practices. The ARO fully supports and is already
         working with the GA-DAS and its parent agency to resolve the three recommendations
         resulting from the audit findings. Our specific comments on each OIG
         recommendation, as well as the current actions taken, are summarized below:


          1. Work with GA-DAS to ensure its leadership and parent agency are properly
             trained and counseled on SSA personnel policies.
             The Georgia Department of Labor (GA-DOL) served as the parent agency of the
             GA-DAS during the first phase of the OIG audit. However, effective with the start
             of Georgia’s new State fiscal year on July 1, 2012, the GA-DAS was placed under
             a new state organization, the Georgia Vocational Rehabilitation Agency (GVRA).


                                                  D-1
                                                                                        2


   Therefore, information and training on SSA’s personnel policies, Federal
   Regulations, Programs Operations Manual (POMS) requirements, etc. are
   presently being undertaken with the new parent agency, as well as GA-DAS
   leadership.

   Prior to the transition of the GA-DAS to its new parent component GVRA, ARO
   staff held several meetings with key representatives from the Georgia Department
   of Human Services (GA-DHS), which is the component designated to provide
   administrative and fiscal assistance to GVRA. No GVRA staff, however, was
   present at these early, pre-transition training sessions, which occurred prior to July
   2012, because the Governor had not yet appointed an Executive Director or any
   Board members to the newly created agency.

   The GA-DAS Director was present at all pre-transition meetings, which focused on
   SSA hiring policies and fiscal issues. In addition, the director has participated in
   numerous personnel and budget training sessions, both formal and informal,
   during her 22 month tenure in her current position. Specifically, the director has
   received training, guidance, and specific directives on the Federal-State
   relationship, SSA personnel policies, hiring authority, overtime approval, contract
   compliance, staffing mix and its impact on production, information on salary issues,
   reporting staffing numbers and hours on the State Agency Operations Report
   (SAOR), etc. However, given on-going concerns regarding GA-DAS personnel
   practices, such as whether SSA authorized hiring numbers are being adhered to
   (i.e., erroneous use of GA-DAS funding to pay the salary of a GA-DOL loaned
   executive in 2012), the ARO will continue to work with the GA-DAS Director and
   staff to ensure that they have a solid knowledge of SSA personnel policies and the
   need to comply with same.

   In addition, since the appointment of an Executive Director of GVRA in July 2012,
   the ARO has held at least five communication/training sessions with the new
   parent agency head to discuss GA-DAS personnel, organizational, workload, and
   fiscal issues relative to SSA requirements and policies. Given the seven percent
   salary increases that GA-DOL authorized for certain GA-DAS employees without
   SSA approval last year, plus the use of SSA funding to pay the salary of an
   unapproved hire/loaned executive, SSA’s personnel requirements have been a key
   focus of these meetings.

   Overall, both the State and SSA have agreed that it is imperative that we continue
   to work together, along with the GA-DAS, to ensure that SSA funding is not being
   used for unapproved items, such as bonus payments. The ARO will continue to
   work closely with key State staff to monitor performance and spending in this area.

2. Closely monitor the GA-DAS’ personnel costs until the ARO is satisfied GA-
   DAS is complying SSA policies and procedures.
   As noted above, the ARO has been holding monthly briefings with the GA-DAS’s
   new parent agency head to discuss SSA fiscal requirements, claimed personnel


                                         D-2
                                                                                       3


   costs, and the State’s responsibilities relative to the GA-DAS budget. In addition, a
   fiscal meeting targeted at training the State on SSA cost pools and items
   comprising the DAS budget post-transition, plus preparation of the SSA-4513/4514
   and the Monthly Obligations Report, has been requested by the ARO. This
   training is expected to take place in November 2012 and will focus on the latest
   fiscal reports submitted by the State, including the payroll records of the DAS and
   the staffing numbers reported on the SAOR. The ARO also plans to hold regular
   fiscal meetings with the GA-DAS, GVRA, and GA-DHS to ensure that any
   identified anomalies are shared, discussed, and corrected so that an environment
   of continuous learning and communication exists among all components.

   Finally, close monitoring of the GA-DAS’s personnel costs has already taken place
   since the draft audit report was issued. For example, the ARO recently shared
   with the GVRA parent agency head a copy of the GA-DAS’s payroll register for
   September 2012, as it reflects another erroneous payment made to the loaned
   executive out of GA-DAS funding for that month. As a result, action is being taken
   to quantify the amount incorrectly paid to this individual so that repayment to SSA
   can be made.

3. Verify that GA-DAS credits $4,858 to the personnel costs claimed on the
   SSA-4513 for the fourth quarter of Fiscal Year 2012.
   The new Executive Director of GVRA is aware that there is an outstanding balance
   of $4,858 that needs to be repaid to SSA due to a salary error made by GA-DOL.
   Because all SSA funding for the GA-DAS was transferred from the prior parent
   agency to the new agency early in July 2012, the two agencies are still working to
   coordinate records to resolve the repayment of the outstanding $4,858. GVRA has
   not yet been able to verify whether GA-DOL repaid these monies back to SSA. In
   addition, recent payroll registers obtained after the parent agency transition
   indicate that the loaned executive was placed back on the GA-DAS’s payroll as of
   July 2012. Therefore, the exact repayment amount is still being determined.

   Compounding this problem is the fact that the prior parent agency, GA-DOL, is still
   processing/cutting the GA-DAS’s salary checks, as the new agency does not yet
   have the software to accurately record the employees’ time and attendance.
   Therefore, the new agency is relying on GA-DOL payment tapes/payroll records to
   ascertain who actually received a check and for how much, which has made
   reconciliation of this issue more problematic.

   The ARO, however, has had numerous conversations with GVRA on this specific
   issue, and the parent agency head is aware that the issue needs to be resolved
   expeditiously. Once it can be verified that unauthorized salary payments are no
   longer being made to the loaned executive out of GA-DAS funding, the total dollar
   amount to be reimbursed to SSA will be quantified so that full repayment can be
   made. ARO staff will be verifying that these actions are completed as soon as
   possible so that this issue is finally resolved and will not occur again.



                                        D-3
                                                                                      4


Please let me know if you have any questions. Staff questions may be directed to
Barbara Hites, Disability Program Administrator, in the Atlanta Region’s Center for
Disability at 404-562-1419.


                               Michael W. Grochowski

cc:
DCO




                                        D-4
                                       Appendix E

Georgia Disability Adjudication Services’
Comments
E-1
E-2
E-3
                                                                        Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Kimberly Byrd, Director, Atlanta Audit Division
   Frank Nagy, Audit Manager
Acknowledgments
In addition to those named above:
   Luis A. Ramírez, Senior Auditor
   Jordan A. Sherman, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518. Refer
to Common Identification Number A-04-12-22135.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
